No. 19-631
IN THE

Ouprente Court of the ?Snitch iptateti
WILLIAM P. BARR, ATTORNEY GENERAL;
FEDERAL COMMUNICATIONS COMMISSION,
Petitioners,
v.
AMERICAN ASSOCIATION OF POLITICAL
CONSULTANTS, INC., ET AL.,
Respondents.

On Writ of Certiorari to the United States
Court of Appeals for the Fourth Circuit

BRIEF FOR STUDENT LOAN SERVICING
ALLIANCE AS AMICUS CURIAE IN SUPPORT
OF PETITIONERS

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,500 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 2, 2020.

(7- ija
Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

